Nos. 19-465, 19-518

In The

Supreme Court Of The United States
Bret Chiafalo, Levi Jennet Guerra, and Esther Virginia John,
Petitioners,
v.
State of Washington,
Respondent.
Colorado Department of State,
Petitioner,
v.
Micheal Baca, Polly Baca, and Robert Nemanich
Respondents.
PRESIDENTIAL ELECTORS’ APPLICATION FOR LEAVE
TO EXCEED WORD LIMITS
IN OPENING BRIEF ON THE MERITS
Directed to the Honorable Sonia Sotomayor as
Circuit Justice

Additional counsel listed
following signature block

L. Lawrence Lessig
Counsel of Record
Jason Harrow
EQUAL CITIZENS
12 Eliot Street
Cambridge, MA 02138
lessig@law.harvard.edu
(617) 496-1124
Dated: February 11, 2020

TO THE HONORABLE SONIA SOTOMAYOR:
APPLICATION FOR LEAVE TO EXCEED WORD LIMITS
For the reasons stated below, Petitioners in Chiafalo v.
Washington, 19-465, and Respondents in Colorado Department of
State v. Colorado, 19-518 (collectively, “Presidential Electors”)
respectfully request leave to file a brief on the merits in excess of
the word limit set forth in Supreme Court Rule 33.1(g)(v), not to
exceed 16,000 words.
1. On January 17, 2020, the Court granted the petitions for
writ of certiorari in Chiafalo, 19-465, and Baca, 19-518,
consolidated the two cases, and allotted a total of one hour for oral
argument.
2. On January 27, 2020, the Court ordered the Presidential
Electors to file an opening brief on the merits and a reply brief on
the merits under the schedule set forth in Rules 25.1 and 25.3.
3. The Presidential Electors intend to file a single brief on
the merits and a single reply brief on the merits in these
consolidated appeals.
4. Although the two appeals present overlapping legal
issues, they arise out of separate legal proceedings and each

1

DAVID H. FRY
J. MAX ROSEN
MUNGER, TOLLES & OLSON LLP
560 Mission St., 27th Fl.
San Francisco, CA 94105

SUMEER SINGLA
DANIEL A. BROWN
HUNTER M. ABELL
WILLIAMS KASTNER & GIBBS, PLLC
601 Union St.
Counsel for all Presidential Suite 4100
Seattle, WA 98101
Electors
(206) 628-6600
Counsel for Petitioners in Chiafalo
JASON B. WESOKY
1331 17th St., Suite 800
Denver, CO 80202
Counsel for Respondents in Baca

JONAH O. HARRISON
ARÊTE LAW GROUP PLLC
1218 Third Ave.
Suite 2100
Seattle, WA 98101
(206) 428-3250
Counsel for Petitioners in Chiafalo

3

